No. 20-187
In The

Supreme Court of iije Puttefr States

OKWUDILI CHUKWUANI,
Petitioner,
v.
Solon school district,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals for the
Sixth Circuit
PETITION FOR REHEARING
Okwudili Francis Chukwuani, MD
Petitioner
7309 Winchester Drive,
Solon, Ohio 44139 .
(713) 574-0043
okwy60@yahoo.com

)

1

TABLE OF CONTENTS

TABLE OF CONTENTS

2

PETITION FOR REHEARING

3

CONCLUSION

5

in

PETITION FOR REHEARING
Pursuant to Sup. Ct. R. 44.2, petitioner, Okwudili Francis Chukwuani,
respectfully requests this Court for an order granting rehearing of this petition for a writ
of certiorari, in the light of the lingering consequences of a “stay put” and procedural
violations and unconstitutional denial of parental right, under the Individual with
Disability Education Act (IDEA), which was presented in case # 20-187.
It concerns a 7-year-old African American child, who was incorrectly identified
as disabled under the Individual with Disability Education Act (IDEA) and transferred
out of the regular schooling environment to a school exclusively dedicated for
disabled children, since 2018. The transfer violated the stay-put requirement
because it was done during the pendency of an administrative review for procedural
violations and his father was denied his parental right because he complained about
the stay put violation. The unconstitutional denial of his father’s parental right was
then used to deny his father jurisdiction for administrative appeal at the federal
district court and at the 6th circuit court.
There is conflict between the triers of facts, Ohio Department of Education
(ODE) Hearing Officers and Appellate Courts on the issue of jurisdiction. The child
has been undergoing systemic deconditioning in the exclusively disabled children’s
school, since 2018.

UC’s father is concerned that the unconstitutional denial of his parental rights, which
was used to prevent the administrative review of the stay put and procedural violations, is
evolving into a dangerous social situation, wherein the care that can be provided by a fit
3

parent is substituted with IEP and special education, without any positive outcome for the
society. Here, a fit father, who can take care of his child without any special education, was
unconstitutionally denied his parental rights, while special education was imposed on his
child without his consent and without any successful outcome. This request for re-hearing is
therefore important because of this clarification and the following issues raised in case # 20187:
1. The denial of jurisdiction by the appellate courts is unconstitutional since it was
based on a state court’s unconstitutional denial of parental rights.
2. The denial of jurisdiction by the appellate court prevented the review of alleged

stay put and procedural violations, which hinders the procedural safeguards in the
IDEA and provides a basis for the abuse of the IDEA.
3. The denial of jurisdiction will lead to a new social problem, wherein parental right

can be unconstitutionally denied to allow the substitution of proactive parental
care by a fit parent with IEP and special education for emotional disturbance.
4. The denial of jurisdiction by the appellate court conflicts with the trier of facts,

Ohio State Department of Education, who witnessed the stay put violation and did
not deny jurisdiction.
Petitioner is aware that the coronavirus pandemic and the turbulent election year, has
impacted on the time to manage the enormous number of cases, which makes it difficult to
comprehensively review this case at the first instance. Hence, a rehearing of case #20-187
will provide the opportunity for a more comprehensive review by this court.

4

CONCLUSION
For the foregoing reasons, petitioner, Okwudili Chukwuani, prays this Court to grant
an order for the rehearing of this petition for the writ of certiorari, case #20-187.
Respectfully submitted on this 12th day of November, 2020.

Okwudili Francis Chukwuani, MD
Pro Se /Parent/Petitioner
7309 Winchester Drive, Solon, Ohio 4439 Tel.: (713) 574-0043
Fax: (713) 357-9405; E-Mail: okwv60@vahoo.com

5

SUPREME COURT OF UNITED STATES
CERTIFICATE OF GOOD FAITH
No. 20-187
Okwudili Francis Chukwuani
Petitioner
v.
Solon School District
Respondent

As required by Supreme Court Rule 44.2,1 certify that this petition for rehearing is
restricted to the grounds set in Rule 44.2, and is presented in good faith and not
for delay.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 13, 2020.

Signed: Okwudili F. Chukwuani, MD
7309 Winchester Drive, Solon, OH 44139
Phone: 713-574-0043

1111 r

:*

NATHAN! LARKIN
Notary Public, State of Ohio
★ ;- My Comm. Expires Aug. 12 2022
Recorded in Cuyahoga County

U//V20

